—

No.

In the
Supreme Court of the United States

AKBAR GHANEH FARD
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Eleventh Circuit

PETITIONER’S APPENDIX

Akbar Ghaneh Fard
Pro se
1699 W. Oak Dr. Unit 257
Dalton, GA 30721
(813)468-5919
ghaneha@hotmail.com

August 17, 2020

TABLE OF CONTENTS
Document

Page

APPENDIX A:
Opinion of the United States Court of Appeals for the Eleventh
Circuit, United States of America v. Akbar Ghaneh Fard,
No. 18-13621 (February 4, 2020)..................................................... Pet. App. 1
APPENDIX B:
Order of the United States Court of Appeals for the Eleventh
Circuit Denying Petition for Rehearing En Banc, United States
of America v. Akbar Ghaneh Fard, No. 18-13621'AA
(March 31, 2020).................................................................................. Pet. App. 9
APPENDIX C:
18 U.S.C. §1343

Pet. App. 10

Case: 18-13621

Date Filed: 02/04/2020

Page: 1 of 8
[DO NOT PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 18-13621
Non-Argument Calendar

D.C. Docket No. 8:17-cr-00131-VMC-SPF-l

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
versus
AKBAR GHANEH FARD,
Defendant-Appellant.

Appeal from the United States District Court
for the Middle District of Florida
(February 4, 2020)

Before GRANT, TJOFLAT and BLACK, Circuit Judges.
PER CURIAM:

Case: 18-13621

Date Filed: 02/04/2020

Page: 2 of 8

Akbar Fard appeals his convictions and 36-month total sentence for six
counts of wire fraud, along with the district court’s forfeiture and restitution orders.
Fard contends the Government failed to present sufficient evidence to sustain his
convictions for wire fraud, specifically that it failed to show he made material
misrepresentations to government agencies when applying for research funding. In
addition, Fard asserts the district court erred in calculating the loss suffered by
government agencies because he performed under the contracts, and thus, the
agencies suffered no pecuniary loss. Fard argues this lack of harm to the agencies
also results in the court’s orders of forfeiture and restitution being in error. After
review, we affirm the district court.
I. DISCUSSION
A. Sufficiency of the Evidence
To prove wire fraud under 18 U.S.C. § 1343, the government must establish
that the defendant (1) intentionally participated in a scheme to defraud and (2) used
the interstate wires in furtherance of the scheme. United States v. Langford, 647
F.3d 1309, 1320 (11th Cir. 2011). “A scheme to defraud requires proof of material
misrepresentations, or the omission or concealment of material facts,. . .
reasonably calculated to deceive persons of ordinary prudence.” United States v.
Hasson, 333 F.3d 1264, 1270-71 (11th Cir. 2003) (internal citation omitted). A
material misrepresentation is one having a natural tendency to influence the
2

Case: 18-13621

Date Filed: 02/04/2020

Page: 3 of 8

decision maker. Id. at 1271. We held that a “scheme to defraud” requires the
intention to harm the victim, distinguishing it from a “scheme to deceive” the
victim, but not harm them. United States v. Takhalov, 827 F.3d 1307 (11th Cir.
2016), abrogated on other grounds by United States v. Takhalov, 838 F.3d 1168
(11th Cir. 2016).
The district court did not err in denying Fard’s motion for judgment of
acquittal as sufficient evidence supports his convictions. See United States v.
Browne, 505 F.3d 1229, 1253 (11th Cir. 2007) (stating we review de novo the
denial of a motion for judgment of acquittal on sufficiency grounds, viewing the
evidence “in the light most favorable to the Government, drawing all reasonable
inferences and credibility choices in the Government’s favor”). Throughout the
trial, the jury heard how Fard was warned that lying in the proposals was illegal,
and how the contracting officers relied on the statements made by Fard, they
negotiated with Fard to ensure the budgets and research met the agencies’ needs,
and entered a final agreement, which required modifications to be made with the
contracting officers. See id. (stating we will affirm a district court’s denial of a
motion for judgment of acquittal if a reasonable jury could conclude that the
evidence establishes the defendant’s guilt beyond a reasonable doubt, and this
standard does not require the evidence to be inconsistent with every reasonable
hypothesis other than guilt, but rather, the jury may choose between reasonable
3

Case: 18-13621

Date Filed: 02/04/2020

Page: 4 of 8

conclusions based on the evidence). Further, the jury heard from Special Agent
Mazzella about how the awards were Advanced Material Technology, Inc.’s
(AMTI’s) only source of income, Fard’s spending was inconsistent with the
information in the budgets, and Fard diverted approximately 70 percent of the
funds awarded to AMTI. From the combination of Fard’s obligations and actual
spending, the Government presented sufficient evidence to show that Fard had
made material misrepresentations to the agencies. See Hasson, 333 F.3d at 127071. From his success in obtaining the awards, the jury could also conclude that
Fard’s statements had the natural tendency of influencing those in charge of
granting the awards. See id. at 1271. Additionally, the jury could conclude the
agencies were harmed and did not receive the benefits of their bargaining with
Fard. From both NASA and the Navy representatives, the jury heard how Fard’s
intentional misrepresentations resulted in the agencies awarding funds they
otherwise would not have, thereby undermining the purpose of the programs to
stimulate innovation and economic growth. See Takhalov, 827 F.3d at 1312-13.
Accordingly, the district court did not err in denying Fard’s motion for judgment of
acquittal. See Browne, 505 F.3d at 1253; Langford, 647 F.3d at 1320.
B. Loss Amount
The 2016 Sentencing Guidelines specifies a 14-level enhancement to a base
offense level for a fraud offense involving a loss amount of more than $550,000,
4

Case: 18-13621

Date Filed: 02/04/2020

Page: 5 of 8

but less than $1.5 million. U.S.S.G. § 2B 1.1 (b)(1)(H). Although the government
must support its loss calculation, the guidelines do not require a precise
determination of loss. United States v. Barrington, 648 F.3d 1178, 1197 (11th Cir.
2011). When the case involves government benefits, such as grants, loans, or
entitlement program payments, the guidelines require the loss be considered “not
less than the value of the benefits obtained by unintended recipients or diverted to
unintended uses.” U.S.S.G. § 2B1.1, comment. (n.3(F)(ii)). In determining the
scope of a “government benefit,” we have reasoned that programs that focus
mainly on who is doing the work, rather than on the work being produced
constitute “entitlement programs.” See United States v. Maxwell, 579 F.3d 1282,
1306 (holding affirmative action municipal programs constituted government
benefits under the sentencing guidelines).
The district court did not err in its application of the government benefit
provision or clearly err in its loss calculation. See id. at 1305 (reviewing a district
court’s interpretation of the sentencing guidelines de novo, and the determination
of the amount of loss involved in the offense for clear error). The district court
concluded that Maxwell governed the issues discussed in sentencing and found that
the Small Business Innovation Research and Small Business Transfer Technology
Research programs constituted government benefits. Regarding whether Fard’s
conduct fell within the scope of the provision, the district court applied the loss
5

Case: 18-13621

Date Filed: 02/04/2020

Page: 6 of 8

calculation for the amount Fard diverted. Though not explicit in its finding of
whether Fard was an unintended recipient or only used the funds for unintended
purposes, the court heard reasonable grounds for either as the Government
distinguished awarding funds to AMTI, not Fard, and Fard’s conduct demonstrated
the awards were used for unintended purposes. U.S.S.G. § 2B1.1, comment.
(n.3(F)(ii)). Regardless of which justification the court relied on, the court’s
determination of loss on either basis was not clearly erroneous. See Maxwell, 579
F.3d at 1305. The district court heard from both the Navy and NASA how Fard’s
conduct undermined the purpose of providing the research funding to small
businesses and, in the case of the Navy, created a question as to the veracity of
Fard’s work. Accordingly, the district court did not err in interpreting the
Guidelines or make a mistake indicative of a clear error in calculating the loss. See
United States v. Rothenberg, 610 F.3d 621, 624 (11th Cir. 2010) (stating we will
conclude a finding of fact is clearly erroneous only if left with a “definite and firm
conviction that a mistake has been committed”); U.S.S.G. § 2B1.1, comment.
(n.3(F)(ii)).
C. Forfeiture and Restitution
We have recognized that forfeiture and restitution are separate concepts
serving different goals. See United States v. Hoffman-Vaile, 568 F.3d 1335, 1344
(11th Cir. 2009) (rejecting the argument that appellant’s forfeiture amount should
6

Case: 18-13621

Date Filed: 02/04/2020

Page: 7 of 8

be reduced because she had already paid restitution to the other victims).
Similarly, we treat loss calculations distinct from restitution because “a defendant’s
culpability will not always equal the victim’s injury.” United States v. Huff, 609
F.3d 1240, 1247 (11th Cir. 2010) (quotations omitted).
The district court did not err in issuing the forfeiture and restitution orders.
See United States v. Robertson, 493 F.3d 1322, 1330 (11th Cir. 2007) (reviewing
“the legality of an order of restitution” de novo and the sentencing court’s
determination of restitution value for abuse of discretion); United States v. Puche,
350 F.3d 1137, 1153 (11th Cir. 2003) (reviewing the district court’s legal
conclusions regarding forfeiture de novo, and its findings of fact for clear error).
Fard’s arguments challenging the orders are contingent upon the success of his loss
arguments, but the district court did not err in calculating the loss and the court’s
loss calculation does not have a direct correlation to the forfeiture and restitution
the court ultimately ordered. See Hoffman-Vaile, 568 F.3d at 1344; Huff, 609 F.3d
at 1247. Therefore, Fard’s grounds for challenging the forfeiture and restitution
orders are meritless.
II. CONCLUSION
The district court did not err in denying Fard’s motion for judgment of
acquittal on sufficiency grounds because the Government presented sufficient
evidence that Fard made intentional misrepresentations in his proposals and the
7

Case: 18-13621

Date Filed: 02/04/2020

Page: 8 of 8

agencies suffered harm because of those misrepresentations. Additionally, the
district court did not err in calculating the loss resulting from Fard’s actions as the
harm Fard caused outweighed any benefit he provided the agencies. Because the
loss calculation was the only basis on which Fard challenged the forfeiture and
restitution orders, his arguments are meritless. Accordingly, we affirm.
AFFIRMED.

8

Case: 18-13621

Date Filed: 03/31/2020

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 18-13621-AA

UNITED STATES OF AMERICA,
Plaintiff - Appellee,
versus
AKBAR GHANEH FARD,
Defendant - Appellant.

Appeal from the United States District Court
for the Middle District of Florida

ON PETITIONfSl FOR REHEARING AND PETITIONS! FOR REHEARING EN BANC
BEFORE: GRANT, TJOFLAT and BLACK, Circuit Judges.
PER CURIAM:
The Petition for Rehearing En Banc is DENIED, no judge in regular active service on the Court
having requested that the Court be polled on rehearing en banc. (FRAP 35) The Petition for
Panel Rehearing is also denied. (FRAP 40)

ORD-46

1 V

Appendix C
18 U.S.C. $ 1343
§ 1343. Fraud bv wire, radio, or television
Whoever, having devised or intending to devise any scheme or artifice to
defraud, or for obtaining money or property by means of false or fraudulent
pretenses, representations, or promises, transmits or causes to be transmitted by
means of wire, radio, or television communication in interstate or foreign
commerce, any writings, signs, signals, pictures, or sounds for the purpose of
executing such scheme or artifice, shall be fined under this title or imprisoned
not more than 20 years, or both.
involving

any

benefit

authorized,

If the violation occurs in relation to, or
transported,

transmitted,

transferred,

disbursed, or paid in connection with, a presidentially declared major disaster or
emergency (as those terms are defined in section 102 of the Robert T. Stafford
Disaster Relief and Emergency Assistance Act (42 U.S.C. 5122)), or affects a
financial institution, such person shall be fined not more than $1,000,000 or
imprisoned not more than 30 years, or both.

10

